                                    SOCIAL SECURITY

MEMORANDUM
Date:   November 26, 2003                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries
        Have Incorrect Social Security Numbers (A-01-03-33020)


        The attached final report presents the results of our audit. Our objective was to
        determine the impact on the Social Security Administration’s programs when auxiliary
        beneficiaries have incorrect Social Security numbers on their Master Beneficiary
        Records.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on our recommendations. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                      James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  IMPACT ON THE SOCIAL SECURITY
   ADMINISTRATION’S PROGRAMS
  WHEN AUXILIARY BENEFICIARIES
         HAVE INCORRECT
    SOCIAL SECURITY NUMBERS

   November 2003   A-01-03-33020



AUDIT REPORT
                                    Mission


We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary
OBJECTIVE
Our objective was to determine the impact on the Social Security Administration’s (SSA)
programs when auxiliary beneficiaries have incorrect Social Security numbers (SSN) on
their Master Beneficiary Records (MBR).

BACKGROUND
Auxiliary beneficiaries are children, widows, spouses, and parents who receive Old-Age,
Survivors and Disability Insurance (OASDI) benefits based on another wage earner’s
Social Security record. As such, the primary wage earner’s SSN—not the auxiliary
beneficiary’s SSN—is used to track the auxiliary beneficiary’s benefit payments on the
MBR.

Many of SSA’s systems use SSNs to control information about individuals. For
example, death reports, Supplemental Security Income (SSI) records, earnings records,
and prisoner information are associated with the SSNs of the individuals to whom the
information pertains. Because this information can affect an individual’s entitlement to
benefits, SSA routinely compares or matches this information to its payment files to
ensure payment accuracy.

RESULTS OF REVIEW
SSA's ability to ensure payment accuracy in both the OASDI and SSI programs is
impacted when auxiliary beneficiaries do not have their correct SSNs on the primary
wage earner’s MBR. During our audit, we identified about $1.1 million in improper
payments due to incorrect auxiliary SSNs on the MBR.

CONCLUSIONS AND RECOMMENDATIONS
It is important that SSA take all cost effective steps to ensure payment accuracy within
its programs—especially in light of SSA’s Strategic Goals for Fiscal Year 2004, which
include a goal to ensure “Superior stewardship of Social Security programs and
resources.” To help meet this goal, SSA hopes to prevent erroneous payments and
increase the accuracy of its earnings records. Based on the results of our audit and to
improve the Agency’s stewardship, we make several recommendations that are
discussed in detail in this report.

AGENCY COMMENTS
SSA agreed with our recommendations.




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                i
                                                                          Table of Contents
                                                                                                                       Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................7

  Earnings ...............................................................................................................7

  Death ....................................................................................................................8

  Concurrent Beneficiaries ......................................................................................9

  Prisoners ............................................................................................................10

  Auxiliary Beneficiaries with Unverified Social Security Numbers ........................10

CONCLUSIONS AND RECOMMENDATIONS.....................................................12

APPENDICES

APPENDIX A – Modernized Claims System Numident Alert Process

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                                                    Acronyms
A-101                         Manual System Used to Process OASDI Claims
BOAN                          Beneficiary’s Own Account Number
DACUS                         Death Alert, Control and Update System
DMF                           Death Master File
ESF                           Earnings Suspense File
EVS                           Enumeration Verification System
FO                            Field Office
MBR                           Master Beneficiary Record
MCS                           Modernized Claims System
MEF                           Master Earnings File
OASDI                         Old-Age, Survivors and Disability Insurance
OIG                           Office of the Inspector General
POMS                          Program Operations Manual System
PUPS                          Prisoner Update Processing System
SSA                           Social Security Administration
SSI                           Supplemental Security Income
SSN                           Social Security Number
SSR                           Supplemental Security Record
TY                            Tax Year
U.S.                          United States




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                                                             Introduction
OBJECTIVE
Our objective was to determine the impact on the Social Security Administration’s (SSA)
programs when auxiliary beneficiaries have incorrect Social Security numbers (SSN) on
their Master Beneficiary Records (MBR).

BACKGROUND
Auxiliary beneficiaries are children, widows, spouses, and parents who receive
Old-Age, Survivors and Disability Insurance (OASDI) benefits based on another wage
earner’s Social Security record. As such, the primary wage earner's SSNnot the
auxiliary beneficiary's SSNis used to track the auxiliary beneficiary's benefit
payments. SSA commonly refers to the auxiliary beneficiary’s SSN as the Beneficiary’s
Own Account Number (BOAN) and maintains this information on the MBR.1 As of
December 2001, SSA paid benefits to over 45 million OASDI beneficiaries, and about
11 million of these individuals were auxiliary beneficiaries.2

A January 1987 Office of the Inspector General (OIG) report found that auxiliary
beneficiaries with incorrect SSNs on their MBRs impaired SSA’s ability to monitor
payment accuracy.3 Specifically, the report determined that requiring beneficiaries
provide valid SSNs as a condition for payment of OASDI benefits would (1) allow SSA
to better monitor their compliance with annual earnings limitations and (2) reduce SSA’s
improper payments to the deceased.

In November 1988, the Technical and Miscellaneous Revenue Act, Public Law
No. 100-647 was enacted.4 This Law amended the Social Security Act to require that,
as of June 1, 1989, an individual must present satisfactory proof of an SSN before
receiving any Social Security benefits.

To comply with Public Law No. 100-647, SSA established the incorrect BOAN alert
process. This process generates bi-monthly alerts to SSA field offices (FO) when the
program detects an auxiliary beneficiary—first entitled in June 1989 or later—whose


1
 An MBR consists of information related to a beneficiary’s entitlement to OASDI benefits—Program
Operations Manual System (POMS), section SM 00510.002.
2
    Social Security Administration’s report, 2002 Annual Statistical Supplement, page 170.
3
 Review of Payment to Auxiliary Beneficiaries Without Their Own Social Security Number
(A-13-86-62608), January 1987.
4
 Section 205(c)(2)(F) of the Social Security Act, as amended, (42 U.S.C. 405(c)(2)(F)), (Section 8009 of
Public Law No. 100-647).


Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                                1
SSN is incorrect on the MBR.5 However, a March 1998 OIG report found that resolving
BOAN alerts was a low priority for FO managers among the many other duties assigned
to their offices.6

In November 1998, SSA also updated its automated OASDI claims process, referred to
as the Modernized Claims System (MCS),7 to include a safeguard against incorrect
SSNs and other identifying information from being placed on the MBR. Before this time,
only invalid SSNs (that is, SSNs not assigned to anyone) could be detected. Most
OASDI claims are taken and processed in MCS, which produces an MBR. With the
November 1998 update to the automated system, an alert is produced when a
discrepancy is detected between a claimant’s (primary wage earner and/or auxiliary
beneficiary) identifying data (SSN, name, and date of birth) and his or her Numident
record (see Appendix A for an example of the alert).8 In other words, if a correct SSN is
provided but typed incorrectly into MCS or an incorrect SSN is given, a Numident alert
is produced.

The Numident alert can be overridden by either FO staff or management and is only
produced in claims initiated in MCS. FO staff can skip the alert and process the claim
with an incorrect SSN. However, a BOAN alert is generated when an incorrect SSN is
detected on the MBR.

Some claims initiated in MCS must be finished using another system—SSA’s A-101
system—while other claims must be completely handled on paper outside of MCS.9
Oftentimes information such as the claimant’s SSN, name, and date of birth are copied
from MCS to the A-101 system. Therefore, the Numident alert feature in MCS should
prevent an incorrect SSN from entering the A-101 system. Sometimes, however, the
auxiliary beneficiary’s SSN does not copy to the A-101 system. In these cases, the
SSNs need to be manually input into a system that does not have a Numident alert
feature. Therefore, an incorrectly typed SSN would go undetected. When a claim is
completed on paper there are no safeguards to prevent an SSN from being typed or
provided incorrectly from being input into the system.

Many of SSA’s systems use SSNs to control information about individuals. An incorrect
SSN can affect an individual’s entitlement to benefits. For example, SSA uses the SSN
to perform a variety of data matches both within SSA and with other agencies. These
5
 POMS, section SM 00613.350, explains the incorrect BOAN alert process. Additionally, POMS, section
SM 00613.351, explains how to resolve an incorrect BOAN alert.
6
 Payment of Benefits to Individuals Who Do Not Have Their Own Social Security Number
(A-04-96-42000), March 1998.
7
    Modernized Systems Operations Manual, Chapter 3-52 covers the MCS process in detail.
8
 The Numident is a record of identifying information provided by the applicant on his or her application
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each
Numident is housed in the Numident Master File in SSN order.
9
    The A-101 process is explained in detail at http://seanet.sf.ssa.gov/a101/index.htm.


Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                                2
matches assist SSA in determining the beneficiaries’ eligibility and—to the extent an
SSN is incorrect—the value of these matches is diminished. For this audit, we focused
on the impact of incorrect SSNs of auxiliary beneficiaries on the primary wage earner’s
MBR with regard to four such matches: earnings records, death reports, Supplemental
Security Income (SSI) records, and prisoner information.

Earnings

Social Security benefits are designed to supplement some of the earnings lost because
of the retirement, disability or death of a worker. For this reason, limitations may be
placed on the amount of income a beneficiary is allowed to earn before his or her
benefits are reduced. When auxiliary beneficiaries work, their benefits—and benefits
payable to other beneficiaries on the same record—may be too high or too low.

To lessen the reporting burden on the public, in 1997, SSA assumed the responsibility
of detecting the earnings of beneficiaries and adjusting their benefit payments as
needed. Therefore, most beneficiaries no longer report their earnings to SSA directly.10
Instead, SSA developed the Earnings Enforcement Operation to ensure benefits are
paid correctly considering the beneficiaries’ earnings. SSA records the earnings history
of individuals in its Master Earnings File (MEF) under the individual’s SSN.11 If the
individuals’ names and/or SSNs reported by their employers do not match SSA’s
records, these earnings are placed in the Earnings Suspense File (ESF) until the
discrepancies are resolved.12 Once resolved, these earnings are transferred from the
ESF to the MEF—and this transferring process requires that SSA expend additional
resources.

The Earnings Enforcement Operation matches the earnings data, recorded on the MBR,
against the actual earnings recorded in the MEF under the individual’s SSN. The
system identifies both under- and overpayment situations that result from the match.
SSA also records on the MBR an estimate of the amount of future earnings a
beneficiary expects to receive to prevent overpayments.13 When auxiliary beneficiaries
have reported earnings under their SSNs—but those SSNs are incorrectly recorded on
the MBR—the Earnings Enforcement Operation will not detect that working individuals
are beneficiaries or may assign the earnings to the wrong beneficiary. As a result, SSA
may not know when benefit payments should be adjusted.


10
  This does not apply to disabled auxiliary beneficiaries. Individuals who receive auxiliary benefits based
on their disabilities are required to report their earnings to SSA. However, SSA has a system called the
Continuing Disability Review Enforcement Operation that is designed to alert the Agency of records with
potentially uninvestigated substantial earnings after disability onset.
11
     POMS, section RM 03870.001.
12
     POMS, section WR 10030.012.
13
     POMS, section RS 02510.005.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                               3
Death

An auxiliary beneficiary’s entitlement to benefits should cease upon death.14 To prevent
erroneous payments after death, SSA uses the Death Alert, Control and Update System
(DACUS). DACUS receives death data from external and internal sources and
produces a national file of death information known as the Death Master File (DMF).
DACUS compares the SSNs of deceased individuals to the SSNs of OASDI
beneficiaries. When auxiliary beneficiaries’ SSNs are incorrectly recorded on the wage
earners’ MBR, DACUS will not detect that the deceased individuals are beneficiaries
whose payments should be terminated.

Concurrent Beneficiaries

Concurrent beneficiaries are individuals entitled to receive benefit payments under both
the OASDI and SSI programs. SSI is a needs-based program, and eligibility is, in part,
dependent upon the amount of income available to the aged, blind or disabled recipient.
The OASDI payments received by concurrent beneficiaries are considered income
under the SSI program and recorded on the recipients’ Supplemental Security Record
(SSR). SSI records are tracked based on the individuals’ SSN. If the SSN of an
auxiliary beneficiary is incorrect on the wage earner’s MBR, SSA may not know a
beneficiary is concurrently receiving benefits.15 As a result, the recipient’s SSI
payments may be overpaid.

Prisoners

The Social Security Act prohibits OASDI payments to beneficiaries who have been
convicted and confined for more than 30 days.16 SSA receives prisoner data from
correctional facilities and processes it through its Prisoner Update Processing System
(PUPS). Since PUPS uses SSNs to identify prisoners,17 the system will not identify an
auxiliary beneficiary who is in prison if the beneficiary's SSN is incorrect on the wage
earner’s MBR. Therefore, SSA FOs will not be alerted to investigate these cases to
determine whether benefit payments should be stopped.




14
     As stated in 20 CFR §§ 404.316, 404.332, 404.337, 404.341, 404.352 and 404.371.
15
 The MBR and SSR interface daily to share information about concurrent beneficiaries, as described in
POMS, section SM 02001.001.
16
     Section 202 (x)(1)(A) of the Social Security Act, as amended, (42 U.S.C. 402(x)(1)(A)).
17
     POMS, section GN 02607.003.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                             4
SCOPE AND METHODOLOGY
To accomplish our objective, we:

    Reviewed applicable sections of the Social Security Act and SSA’s regulations,
     rules, policies, and procedures.

    Processed a file of 11.5 million auxiliary beneficiaries who were receiving OASDI
     benefits in August 2002 through SSA’s Enumeration Verification System (EVS).18
     Discrepancies on 246,558 of these beneficiaries’ records were found because the
     SSN, name, date of birth, and/or gender submitted for verification (from the MBR)
     did not agree with the Numident record. For these 246,558 records, EVS

     ¾ identified a single possible SSN for 21,030 unverified beneficiaries (8.5 percent)
       based on their names, dates of birth, and gender;
     ¾ could not determine a single possible SSN for 75,654 unverified beneficiaries
       (30.5 percent) based on their names, dates of birth, and/or gender; and
     ¾ verified 149,874 auxiliary beneficiaries’ SSNs (61 percent), but
       50,704 beneficiaries had discrepancies with their dates of birth while
       99,170 beneficiaries had discrepancies with their gender.19

    Obtained information from SSA’s MEF as of February 2003, DMF as of
     September 2002, SSR as of January 2003, and PUPS as of October 2001.
    Of the 21,030 SSNs identified by EVS, we found that 2,225 were actually correct on
     the MBR. For the remaining 18,805 SSNs, our matches against the MEF, DMF,
     SSR, and PUPS records identified the following:
     ¾ 329 SSNs under which earnings were posted to the MEF from 1996 through
       2001;
     ¾ 35 SSNs with dates of death on the DMF;
     ¾ 21 SSNs in which the beneficiaries may have received both OASDI and SSI
       payments concurrently and who were entitled to benefits anytime from 1993 to
       2003; and
     ¾ 3 SSNs with prisoner records in PUPS.




18
  EVS electronically verifies SSNs by comparing an individual’s incoming data (SSN, name, date of birth,
and gender) against identifying data located in SSA’s Numident records. When certain incoming data
does not match the Numident the SSN is considered unverified. EVS then tries to locate possible SSNs
based on the individuals’ names, dates of birth, and gender.
19
  We did not analyze the discrepancies with date of birth or gender because the SSNs appeared to be
correct based on the EVS process.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                            5
     Calculated the dollar impact of beneficiaries’ payments for each of the earnings,
      DMF, SSI, and PUPS cases.20

     Selected a stratified random sample of 200 auxiliary beneficiary SSNs from the
      population of 75,654 cases where EVS could not find a single possible SSN.
      (See Appendix B for sampling methodology and results.)

     Obtained the ESF for Tax Year (TY) 2000 and matched it against the population
      of 75,654 cases where EVS could not find a single possible SSN. This match
      identified 566 wage items in suspense for individuals with the same SSNs as the
      auxiliary beneficiaries.
      ¾ Determined whether the TY 2000 wage items in suspense belonged to the
        auxiliary beneficiaries in this population and whether these wages were
        reinstated to SSA’s MEF.

We performed our audit in Boston, Massachusetts between December 2002 and
June 2003. We found the data used for this audit were sufficiently reliable to meet our
audit objective. The entities audited were SSA’s FOs under the Deputy Commissioner
for Operations and the Office of Systems under the Deputy Commissioner for Systems.
We conducted our audit in accordance with generally accepted government auditing
standards.




20
     Cases suspected to involve fraud were referred to the OIG’s Office of Investigations.


Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                  6
                                                              Results of Review
SSA's ability to ensure payment accuracy in both the OASDI and SSI programs is
impacted when auxiliary beneficiaries do not have their correct SSNs on the primary
wage earner’s MBR. For SSA's systems to work effectively, an auxiliary beneficiary's
correct SSN should be on the MBR to determine whether benefit payments should be
adjusted because of earnings, death, concurrent SSI payments, etc.21

During our audit, we identified approximately $1,172,288 in benefits that were
improperly paid because the auxiliary beneficiaries’ SSNs were incorrect on the MBR.
This $1.1 million consisted of the following:

         $398,141 in OASDI benefits improperly paid because the auxiliary beneficiaries’
          earnings were not considered in determining their OASDI benefit amount;

         $325,872 in OASDI benefits improperly paid because of the deaths of auxiliary
          beneficiaries; and

         $448,275 in improper SSI payments because the auxiliary beneficiaries’ OASDI
          benefits were not recognized as income when their SSI payments were
          calculated.

Further, we initially identified 96,684 auxiliary beneficiaries with possible incorrect SSNs
on the MBR.22 After a detailed review of these records, we determined the SSNs were
likely correct on 75,085 (78 percent) of the 96,684 records. These SSNs (although
correct) did not verify through EVS primarily because names were not updated on
SSA’s records after marriage or a legal name change.

EARNINGS
SSA’s ability to post annual earnings and adjust benefits accordingly in a timely fashion
is hindered when the auxiliary beneficiaries’ SSNs are incorrect on the MBR. Of the
21,030 auxiliary beneficiaries for whom EVS found a single possible SSN, 329 cases
had incorrect SSNs on the MBR and earnings posted to the MEF between 1996 and
2001.




21
     Other situations, such as marriage, can also impact an auxiliary beneficiary's benefit payments.
22
  These 96,684 auxiliary beneficiaries consist of the 21,030 and 75,654 records described in the Scope
and Methodology section of this report.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                              7
Of these 329 cases,

        68 beneficiaries (20.7 percent) had $263,584 in improper OASDI benefits.23

        10 beneficiaries (3 percent) with SSNs corrected by SSA during our audit
         resulted in $134,557 in improper payments.

        2 beneficiaries (0.6 percent) with SSNs corrected by SSA during our audit
         resulted in no improper payments.

        247 beneficiaries (75.1 percent) had incorrect SSNs but there was no impact on
         their benefit payments. For example, 146 cases had earnings that were
         allowable, 42 cases had earnings that predated entitlement to benefits, and
         24 cases had excess earnings [earnings above the allowable amount(s)] already
         posted and considered.

        2 beneficiaries’ cases (0.6 percent) were still being worked by SSA.

DEATH
SSA’s ability to identify deceased auxiliary beneficiaries and terminate benefits in a
timely fashion is diminished when the auxiliary beneficiaries' SSNs are incorrect on their
MBRs. Of the 21,030 auxiliary beneficiaries for whom EVS was able to find a
single possible SSN, 35 of these cases had incorrect SSNs on the MBR and dates of
death recorded on SSA’s DMF.

Of the 35 cases:

        8 deceased beneficiaries
         (23 percent) were                           Chart 1: Average Time for SSA
         improperly paid                                      to Terminate Benefits
         $191,359 in OASDI
         benefits because of                         900
                                                     800
         incorrect SSNs on the                       700
         MBR. As of July 2003,                       600
                                               Time 500
         SSA had recovered                    (Days) 400
                                                     300
         $39,959 (21 percent) of                     200
         these funds paid after                      100
                                                       0
         death. As a result of our                         OIG Identified SSA Identified
         audit, SSA took                                      Death          Death
         corrective action to
         terminate the OASDI

23
  Improper payments based on excess earnings were not limited to the scope of this audit (1996 through
2001). Improper payments that occurred before 1996 and/or after 2001 were also included if such
overpayments were recognized by SSA staff during their review of the cases identified during our audit.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                           8
         benefits within an average of 22 days from the date of our notification. However,
         it took SSA an average of 818 days to terminate these benefits from the dates of
         death (refer to Chart 1). For example, a divorced spouse from Maryland died on
         September 10, 1998. Because of the incorrect SSN on the MBR, SSA did not
         know the auxiliary beneficiary was deceased until we told them on
         January 7, 2003. This resulted in a $44,268 overpayment, none of which had
         been recovered as of July 2003.24

        26 deceased beneficiaries (74 percent) also had incorrect SSNs on the MBR, but
         SSA terminated their benefits before our audit. However, had the correct SSNs
         been on the MBR, SSA may have been able to terminate payments more timely
         for 20 of the cases, which resulted in improper payments of $134,513. The
         remaining six deceased beneficiaries had their payments terminated within
         1 month of death resulting in no improper payments. On average, 339 days
         elapsed between the dates of death and when SSA terminated payments for all
         26 beneficiaries (refer to Chart 1). As of July 2003, SSA had recovered
         $70,279 (52 percent) of these funds paid after death. For example, a divorced
         spouse died on December 30, 1986. Because of the incorrect SSN on the MBR,
         SSA did not identify the auxiliary beneficiary as being deceased until
         August 30, 2002. This resulted in a $51,275 overpayment, of which $33,517 has
         been recovered.

        1 auxiliary beneficiary (3 percent) was alive and neither the SSN on the MBR nor
         the SSN suggested by EVS was correct. The SSA program service center
         responsible for this individual is determining the correct SSN for this beneficiary.

CONCURRENT BENEFICIARIES
SSA’s ability to recognize OASDI benefit payments as income on the SSR is reduced
when auxiliary beneficiaries have incorrect SSNs on the MBR. Since the SSI program
is based on need, a concurrent beneficiary’s OASDI benefits would reduce the amount
of SSI payments the individual is eligible to receive. Of the 21,030 auxiliary
beneficiaries for whom we found possible SSNs, we identified 21 auxiliary beneficiaries
who may have received SSI payments while also receiving OASDI benefits.

Of the 21 cases identified, we determined that:

        13 auxiliary beneficiaries (62 percent) had incorrect SSNs on the MBR, which
         prevented SSA from recognizing OASDI benefits as income timely on the SSR—




24
  This case was referred to the OIG’s Office of Investigations in Philadelphia because a financial
institution alleged that the daughter of the deceased beneficiary used an automated teller machine card to
routinely withdraw the OASDI funds paid after death.



Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                             9
         resulting in $448,275 in improper SSI payments.25 For example, a concurrent
         beneficiary was improperly paid $78,565 in SSI payments between
         September 1990 and February 2003 because SSA did not recognize the OASDI
         income she was receiving as an auxiliary beneficiary until we notified SSA of the
         situation. SSA did not recognize her OASDI income because her SSN on the
         MBR was incorrect.

        1 auxiliary beneficiary (5 percent) had an incorrect SSN on the MBR. However,
         this incorrect SSN did not appear to have seriously delayed SSA’s recognition of
         her OASDI income. She received an SSI overpayment for only 1 month before
         her OASDI income was recognized, and the overpayment was subsequently
         recovered.

        7 auxiliary beneficiaries (33 percent) had incorrect SSNs on the MBR but they did
         not impact benefit payments. For example, two cases had OASDI benefits begin
         after the SSI payments were terminated.

PRISONERS
Of the 21,030 auxiliary beneficiaries, we found incorrect SSNs for 3 individuals who had
incarceration dates listed in PUPS. However, none of these cases led to improper
payments. Although we did not find any improper payments in our audit, we still believe
SSA’s ability to identify auxiliary beneficiaries in prison and terminate benefits in a timely
fashion would be diminished when auxiliary beneficiaries have incorrect SSNs on the
MBR.

AUXILIARY BENEFICIARIES WITH UNVERIFIED SOCIAL SECURITY
NUMBERS
As previously discussed, we processed a file of 11.5 million auxiliary beneficiaries who
were receiving OASDI benefits as of August 2002 through EVS and found the SSNs for
96,684 of these beneficiaries did not verify.

EVS identified a single possible SSN for 21,030 of these beneficiaries based on their
names and dates of birth. However, EVS was unable to identify possible SSNs for the
remaining 75,654 beneficiaries. We tested both of these groups for our audit. Based
on the results of our testing, we estimate that 75,08526 (78 percent) of the
96,684 auxiliary beneficiaries actually had correct SSNs on the MBR.

25
  As a result of SSA’s rules of administrative finality, the Agency may be unable to recover $219,111 of
the $448,275 in improper payments. Under SSA’s application of its administrative finality rules for SSI,
the time period SSA can assess an overpayment to a recipient is (a) 1 year for any reason, (b) 2 years for
good cause, and (c) any time when fraud or similar fault is found (POMS, section SI 04070.010).
26
  We determined that 2,225 of the 21,030 beneficiaries actually had correct SSNs on their MBRs.
Additionally, we estimate that 72,860 of the 75,654 beneficiaries have correct SSNs on their MBRs—
based on the sampling described in Appendix B.


Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                            10
According to EVS, these beneficiaries’ names and/or dates of birth on their MBRs did
not match the names and/or dates of birth on their Numident records. Generally, we
found the SSNs did not verify through EVS because married names or legal name
changes were not updated to either SSA’s MBR or Numident records.

Earnings Suspense File

When a working auxiliary beneficiary has an SSN which does not verify through EVS
because his or her name does not match SSA’s Numident file, the beneficiary’s
earnings may not be properly recorded in SSA’s Master Earnings File. Instead, the
wages are placed in SSA’s Earnings Suspense File (ESF) until the discrepancy is
resolved.

We matched the 75,654 unverified SSNs on the MBR for whom EVS could not locate a
single possible SSN to the ESF for TY 2000 and found 566 records totaling $3.2 million
in wages. When we compared the names on the ESF to the names on the Numident
records, we determined the following.

        33 auxiliary beneficiaries earned wages totaling $181,632 which were placed in
         the ESF, but as of June 2003, these wages were transferred to the MEF.

        533 wage items totaling $3 million remained in suspense as of June 2003. For
         517 of the cases, we could not determine whether the suspended wage items
         belonged to the auxiliary beneficiaries because their names on the Numident
         records and ESF did not match—even though the SSNs matched. For the
         remaining 16 cases, it appeared that the suspended wages belonged to the
         auxiliary beneficiaries because the SSNs matched exactly and the names were
         similar amongst the MBR, Numident, and ESF.

        75,088 auxiliary beneficiaries either had no earnings suspended to the ESF for
         TY 2000 or had no earnings posted at all in TY 2000.

SSA has to expend additional resources and tax dollars to review and resolve these
566 suspended earnings cases.27 We only tested one TY for our analysis, but wages
belonging to these auxiliary beneficiaries with unverified SSNs may end up in the ESF
for other TYs. As a result, there may be additional improper payments due to
incorrectly posted earnings for current and future beneficiaries since benefit payments
are based, in part, on the amount of earnings.28



27
  Our March 2003 Congressional Response Report, Social Security Administration Benefits Related to
Unauthorized Work (A-03-03-23053), estimated that it cost SSA over $6 million in administrative
resources to resolve invalid wage items in the ESF for TY 2001.
28
  According to § 215(a)(1)(A) of the Social Security Act, as amended, (42 U.S.C. 415(a)(1)(A)), SSA uses
an individual’s earnings to evaluate a person’s eligibility for OASDI benefits.


Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                          11
                                                     Conclusions and
                                                    Recommendations
It is important that SSA take all cost effective steps to ensure payment accuracy within
its programs—especially in light of SSA’s Strategic Goals for Fiscal Year 2004, which
include a goal to ensure “Superior stewardship of Social Security programs and
resources.” Additionally, one of the goals in the President’s Fiscal Year 2002
management agenda was to improve the Government’s financial performance through
reduction of erroneous payments. To help meet these goals, SSA hopes to prevent
erroneous payments and increase the accuracy of its earnings records.

To improve the Agency’s stewardship of Social Security programs, we recommend that
SSA:

1. Update MCS to include an edit instead of an alert when the System identifies a
   mismatch between the input SSN and associated SSN record, thereby eliminating
   the ability to override the system.

2. Update the A-101 system to identify mismatches between the input SSNs and
   associated SSN records.

3. Review and correct—as appropriate—the 18,805 possible incorrect SSN records we
   identified during our audit.

4. Correct the name and date of birth discrepancies we identified between the
   Numident records and MBR.

AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA informed us that it is
designing a new system to automatically obtain the correct auxiliary beneficiaries’ SSNs
through improved database matches. SSA also plans to update its A-101 system.
Lastly, the Agency is developing a proposal to address the mismatches between the
Numident and MBR. (See Appendix C for the Agency’s comments.)




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                            12
                                                 Appendices




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                                                             Appendix A
Modernized Claims System Numident Alert Process
The Modernized Claims System (MCS) Numident alert safeguards against incorrect
Social Security numbers (SSN) and other identifying information being placed on the
Master Beneficiary Record. Specifically, an alert is produced when a discrepancy is
detected between a claimant’s identifying data (SSN, name and date of birth) on an
MCS claim and his or her Numident record. Below is an example of this alert.

MCS
NUMBER HOLDER SSN ___ ___ ___                         CLAIMANT SSN ___ ___ ___

Data Entered for Number Holder                    Numident Record

SSN: __ __ __
NAME: <first name> <middle name> <last name>      NAME: <first name> <middle name> <last name>
DATE OF BIRTH: _______                            DATE OF BIRTH: _______
SEX: <male or female>                             SEX: <male or female>

Data Entered for Claimant                         Numident Record

SSN: __ __ __
NAME: <first name> <middle name> <last name>      NAME: <first name> <middle name> <last name>
DATE OF BIRTH: _______                            DATE OF BIRTH:        _______
SEX: <male or female>                             SEX: <male or female>


The left side of the alert shows the identifying information from the MCS application
while the right side shows the same type of information from the Numident record. This
alert informs the field office staff that either the MCS application or the Numident record
needs to be corrected.




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                                                                   Appendix B
Sampling Methodology and Results
We processed a file of 11.5 million auxiliary beneficiaries who were receiving Old-Age,
Survivors and Disability Insurance (OASDI) benefits in August 2002 through the Social
Security Administration’s Enumeration Verification System (EVS) and found the Social
Security numbers (SSN) for 96,684 of these beneficiaries did not verify. EVS identified
a single possible SSN for 21,030 of these beneficiaries based on their names and dates
of birth. However, EVS could not identify a single possible SSN for the remaining
75,654 beneficiaries. Specifically, we found that
       EVS identified many possible SSNs for 23,803 of the beneficiaries based on their
        names, or names and dates of birth; and
       EVS was unable to identify a possible SSN for 51,851 of the beneficiaries.

We reviewed a stratified random sample of the 75,654 unverified SSNs to determine
how many of these SSNs were actually correct. Since the Social Security Act1 requires
that individuals present satisfactory proof of their SSNs as of June 1, 1989, we divided
the population into the following two groups.

       Auxiliary beneficiaries with unverified SSNs who became entitled to OASDI
        benefits on or after June 1, 1989 were placed in Group A—11,636 beneficiaries.
       Auxiliary beneficiaries with unverified SSNs who became entitled to OASDI
        benefits before June 1, 1989 were placed in Group B—64,018 beneficiaries.

We then selected a random sample of 100 auxiliaries from each group for a total of
200 cases. For 194 cases, the SSNs were actually correct and for the remaining
6 cases, the SSNs were incorrect. The table below shows our projected sample results.

                          Sample Results and Projections
                                              Group A    Group B                              Total
Population size                                11,636     64,018                              75,654
Sample size                                       100        100                                 200
                                Attribute Projections
Sample cases with correct SSNs                   9898         96                                 194
Projected cases with correct SSNs              11,403     61,457                              72,860
Projection lower limit                                                                        70,771
Projection upper limit                                                                        74,950
Note: All projections are at the 90-percent confidence level.


1
 Section 205(c)(2)(F) of the Social Security Act, as amended, (42 U.S.C. 405(c)(2)(F)), (Section 8009 of
Public Law No. 100-647).




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                                              Appendix C
Agency Comments




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                                           SOCIAL SECURITY

MEMORANDUM


Date:      November 14, 2003                                                    Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Impact on the Social Security
           Administration's Programs When Auxiliary Beneficiaries Have Incorrect Social Security
           Numbers" (A-01-03-33020)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell at extension 52636.

           Attachment:
           SSA Response




           Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “IMPACT ON THE SOCIAL SECURITY ADMINISTRATION’S PROGRAMS
WHEN AUXILIARY BENEFICIARIES HAVE INCORRECT SOCIAL SECURITY
NUMBERS” (SSN) (AUDIT NO. A-01-03-33020)


Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should update the Modernized Claims System (MCS)
to include an edit instead of an alert when the system identifies a mismatch between the input
SSN and associated SSN record, thereby eliminating the ability to override the system.

Response

We agree. We plan to automatically obtain the correct Beneficiaries Own Account Number
(BOAN) by improving the data base matches, and have already begun designing the new system.
While our solution is not identical to OIG’s proposal, it will accomplish the same results.

Recommendation 2

SSA should update the A-101 system to identify mismatches between the input SSNs and
associated SSN records.

Response

We agree. Effective with Title II Redesign (T2R), Release 3, the SSN will be a protected
element in the A-101 screens. Under the new T2R release, when a Claims Authorizer recognizes
the SSNs on the A-101 are incorrect, they will have to go back to the MCS and enter the new
numbers via the MCS process. Therefore, the edits that the MCS applies to the SSN will no
longer be overridden via the A-101 process. Again, while our solution is not identical to OIG’s
proposal, it will accomplish the same results.

Recommendation 3

SSA should review and correct, as appropriate, the 18,805 possible incorrect SSN records
identified during the audit.




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                C-2
Response

We agree and are already sponsoring an information technology (IT) plan to automate the
posting of missing BOANs to the Master Beneficiary Record (MBR). That item is currently in
the planning and analysis stage. After it has been implemented, we will develop a new item to
address mismatches between the Numident and MBR.

Recommendation 4

SSA should correct the name and date of birth discrepancies identified between the Numident
records and the MBR.

Response

We agree. The proposed IT plan referred to in our reply to recommendation number 3 will
address this problem.




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)                                   C-3
                                                                        Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Judith Oliveira, Deputy Director (617) 565-1765

Acknowledgments

In addition to those named above:

   Jeffrey Brown, Auditor

   Kevin Joyce, IT Specialist

   Pat Kennedy, Audit Manager

   Joseph LoVecchio, Auditor

   David Mazzola, Senior Auditor

   Toni Paquette, Program Analyst

   Alex Rosania, Program Analyst

   Frank Salamone, Auditor

   Charles Zaepfel, Computer Specialist

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-03-33020.




Auxiliary Beneficiaries with Incorrect SSNs (A-01-03-33020)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
